<html>
<title> - AN EXAMINATION OF BLACKSTART, THE PROCESS FOR RETURNING ENERGY TO THE POWER GRID AFTER A SYSTEM-WIDE BLACKOUT, AND OTHER SYSTEM RESTORATION PLANS IN THE ELECTRIC UTILITY INDUSTRY</title>
<body><pre>[Senate Hearing 115-531]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-531
 
 AN EXAMINATION OF BLACKSTART, THE PROCESS FOR RETURNING ENERGY TO THE 
 POWER GRID AFTER A SYSTEM-WIDE BLACKOUT, AND OTHER SYSTEM RESTORATION 
                 PLANS IN THE ELECTRIC UTILITY INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 11, 2018

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov    
        
    
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 32-537                WASHINGTON : 2020         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                 Kellie Donnelly, Deputy Chief Counsel
                     Isaac Edwards, Special Counsel
                         Jed Dearborn, Counsel
                    Robert Ivanauskas, FERC Detailee
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
               John Richards, Democratic General Counsel
               Elisabeth Olson, Democratic FERC Detailee
               
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Ortiz, Dr. David S., Acting Director, Office of Electric 
  Reliability, Federal Energy Regulatory Commission..............     4
Ott, Andrew L., President & CEO, PJM Interconnection, L.L.C......    11
Torres, Juan, Associate Laboratory Director for Energy Systems 
  Integration, National Renewable Energy Laboratory..............    27
Ditto, Joy, President and CEO, Utilities Technology Council......    36
Galloway, Sr., Thomas J., President and CEO, North American 
  Transmission Forum.............................................    73
Yardley, Timothy M., Senior Associate Director of Technology and 
  Workforce Development, Information Trust Institute, University 
  of Illinois at Urbana-Champaign................................    97

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     2
Diesel Technology Forum:
    Statement for the Record.....................................   147
Ditto, Joy:
    Opening Statement............................................    36
    Written Testimony............................................    38
    Response to Question from Senator Hoeven.....................   114
Galloway, Sr., Thomas J.:
    Opening Statement............................................    73
    Written Testimony............................................    75
    Responses to Questions for the Record........................   138
Grid Assurance, LLC:
    Statement for the Record.....................................   149
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Ortiz, Dr. David S.:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Responses to Questions for the Record........................   131
Ott, Andrew L.:
    Opening Statement............................................    11
    Written Testimony............................................    13
    Responses to Questions for the Record........................   133
Torres, Juan:
    Opening Statement............................................    27
    Written Testimony............................................    29
    Responses to Questions for the Record........................   135
Yardley, Timothy M.:
    Opening Statement............................................    97
    Written Testimony............................................    99
    Responses to Questions for the Record........................   141


   AN EXAMINATION OF BLACKSTART, THE PROCESS FOR RETURNING ENERGY TO 
     THE POWER GRID AFTER A SYSTEM-WIDE BLACKOUT, AND OTHER SYSTEM 
           RESTORATION PLANS IN THE ELECTRIC UTILITY INDUSTRY

                              ----------                              


                       THURSDAY, OCTOBER 11, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, the Committee will come to 
order.
    We are here this morning to have a discussion on 
blackstart, which is the process for returning energy to the 
power grid after a system-wide blackout.
    You do not want to imagine it, but there are probably 
enough movies that are out there that we do not need to imagine 
anymore. But just imagine a scenario where everyone living 
within an interconnected electrical grid system loses power. 
Here on the East Coast, that would effectively mean a blackout 
that spans from Maine to Florida, all the way to Minnesota, 
back to Louisiana. Hundreds of millions of people could be left 
in the dark, power lines no longer energized, and generating 
stations would be off.
    More practically, it means that your lights would be off, 
but also your air conditioning is out, kind of a miserable, 
ugly morning out there and you are going to notice something 
like that. Appliances like your oven, your refrigerator, your 
ability to charge your cell phone, no longer working.
    A system-wide blackout is mostly the stuff of nightmares 
and Hollywood thrillers, but it is also a high-consequence 
threat that our nation must be prepared to respond to. The 
United States has never seen a blackout of this kind, that I 
have described of this scope and that is very fortunate, but 
the increasing risks presented by cyberattacks and the threats 
of electromagnetic pulse and solar storms make it more 
important that we be prepared.
    The question we have to be able to answer is, should all of 
the grid go down, how will we restart our generating stations, 
repower the lines, and safely deliver electricity to homes and 
businesses? The process for returning energy to the power grid 
after a system-wide blackout is known as blackstart. The nuts 
and bolts of this process are and should be closely held, but 
we certainly can discuss the theory and the necessity of 
blackstart in an open setting as we are doing here this 
morning.
    America cannot operate without electricity service, and we 
must have plans in place to restore power to our grid. A 
system-wide blackout is a low probability event, but similar to 
a cyber or nuclear attack, the electric utility industry has to 
be prepared. There are a variety of everyday threats to the 
grid that could cause it, like what happened on August 14th in 
2003 when we saw a tree that had grown too near a power line 
and it started this ``cascading'' blackout, which caused 
widespread power outages for some 50 million people across the 
Midwest, the Northeast, and the Canadian province of Ontario.
    A cascading blackout occurs when the failure of one 
interconnected part of the system triggers the failure of 
successive parts, the domino effect of power transmission 
failure. Thankfully, the cascading event in August of '03 did 
not involve the entire interconnection and force us to engage 
in a real-world test of blackstart procedures, but it could.
    I certainly hope our nation never faces a situation where a 
total restart of the electric system is required, but it is 
critical and I think we would acknowledge that there has to be 
a plan in place should the worst happen.
    The panel that we have this morning, an impressive group of 
experts, have all spent time thinking about this, working on 
these issues. I thank you for making yourselves available this 
morning. We had to reschedule this hearing from an earlier 
time, so I appreciate your flexibility. Again, thank you for 
being here to have this important discussion.
    With that, I turn to my colleague, Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. Thanks for 
scheduling this important hearing and talking about these 
important issues of preparation and ability to restore our 
electric grid in the case of a catastrophic system disruption 
or widespread blackout.
    I would also like to commend you, in general, for your 
continued leadership in this changing energy space. I 
appreciate the attention the Committee has given to recent 
hearings, including today's topic of moving forward on 
reliability.
    This is such an important topic because we take for granted 
that the lights always come on when we flip the switch, but our 
electric system is increasingly being tested and stressed and 
there are daily cyber threats to our electricity 
infrastructure.
    In July, the DNI Director spoke to the increase in 
malicious cyber activities, importantly noting, ``the warning 
lights are blinking red.'' So I continue to be concerned that 
there are sophisticated attacks that may result in widespread 
blackouts.
    Unfortunately, cyber threats are not the only concern for 
the grid. Climate change is resulting in an increased frequency 
and severity of extreme storm events and natural disasters. 
With Hurricane Florence hitting the Carolinas, we saw nearly 
one million customers in the storm path lose power, and 
widespread flooding that has not yet fully subsided. As we 
speak, Florida is weathering Hurricane Michael. And, of course, 
a year ago, the devastation from Hurricane Maria in Puerto Rico 
still has the island lacking the transmission resiliency in 
distribution that we would like to see.
    On a positive note, I know that the CEO of the North 
American Electric Reliability Corporation, NERC, has reiterated 
that it is very unlikely that we would see a foreign entity 
attack our system, resulting in a catastrophic outage. We know 
that NERC, FERC and DOE are all working together with our 
national labs on electricity reliability and continue to move 
forward on innovative fronts.
    But R&D cannot eliminate all the risks. Technologies 
sometimes fail and, obviously, Mother Nature doesn't always 
play nice. We must be prepared for major blackout events, and 
that brings us to this rarely discussed but important topic 
today, blackstart.
    As Congress and regulators of the electricity sector look 
at grid resiliency, we should consider what we actually have to 
do to have restoration plans. At the heart of these recovery 
and restoration plans are generation resources which provide 
blackstart capability--the ability to restart without drawing 
on the power grid, which is how generators usually start. 
Instead, generating units with blackstart capability have the 
same onsite ability to kick-start the grid. It is important 
that grid operators and blackstart generators have access to 
uninterrupted communication as they bring the system back 
online in a coordinated manner.
    I am also encouraged by the innovation in this area of 
system restoration from blackstart generators. In 2018, the 
NERC and FERC regional entity joint review of restoration 
recovery plans found that across all regions of the country, 
despite an evolving mix of utilities, there is significant 
reliance on the bulk power system, but they have sufficient 
blackstart capabilities for their system restoration plans. So 
that is good. This shows that the changing system can still be 
resilient.
    As an example from last year, Imperial Irrigation District 
in California successfully demonstrated the use of battery 
storage energy to fire up a combined-cycle gas turbine from an 
idle start. And in Pullman, Washington, where we are so proud 
of Schweitzer Engineering, they tout an island blackstart as a 
key offering of their comprehensive microgrid system. So I love 
that; it is so important.
    To our friends in the White House and DOE who are 
continually arguing that only a coal-based system is secure, I 
would offer two facts: one, without blackstart capability, 
onsite fuel will not matter when a system is down; and two, 
clean energy resources can provide resilience, including 
blackstart, capability. I would point to my home State of 
Washington, which is blessed with abundant hydropower. The 
second installment of the Quadrennial Energy Review found that, 
``hydropower provides a variety of essential reliability 
services that are beneficial to the electricity system, 
including blackstart capability.''
    So again, thank you, Madam Chair, for having this hearing. 
I appreciate the expert panel that is before us and look 
forward to hearing their comments on how we continue to move 
forward on this innovation and security for our nation.
    The Chairman. Thank you, Senator Cantwell.
    We will now turn to our panel. Again, welcome to each of 
you.
    The panel this morning will be led off by Dr. David Ortiz. 
Dr. Ortiz is the Acting Director for the Office of Electric 
Reliability over at the Federal Energy Regulatory Commission 
(FERC). We welcome you this morning.
    Mr. Andrew Ott is with us. He is the President and CEO for 
PJM Interconnection. Thank you for joining us.
    Mr. Juan Torres is the Associate Laboratory Director for 
Energy Systems Integration at NREL, our National Renewable 
Energy Laboratory. I know that Senator Gardner certainly has an 
interest in NREL. We are pleased to have you with us, Mr. 
Torres.
    Ms. Joy Ditto is the President and CEO of the Utilities 
Technology Council (UTC). Welcome.
    Mr. Thomas Galloway is the President and CEO for the North 
American Transmission Forum (NATF). We thank you.
    And the panel will be rounded off by Mr. Timothy Yardley, 
who is the Senior Associate Director of Technology and 
Workforce Development at the University of Illinois at Urbana-
Champaign.
    We have a great panel here this morning and are pleased to 
hear your contribution to this important subject.
    Mr. Ortiz, if you would like to lead off. We ask that you 
try to limit your comments to about five minutes. Your full 
statements will be incorporated as part of the record.

       STATEMENT OF DR. DAVID S. ORTIZ, ACTING DIRECTOR, 
        OFFICE OF ELECTRIC RELIABILITY, FEDERAL ENERGY 
                     REGULATORY COMMISSION

    Dr. Ortiz. Thank you, Madam Chairman.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, thank you for the opportunity to testify today.
    My name is David Ortiz. I am the Acting Director of the 
Office of Electric Reliability at the Federal Energy Regulatory 
Commission. I'm here today as a Commission staff witness and my 
remarks do not necessarily reflect those--do not necessarily 
reflect the views of the Commission nor any individual 
commissioner.
    Congress gave the Commission the authority in the Energy 
Policy Act of 2005 to oversee the development and enforcement 
of mandatory reliability standards for the bulk power system. 
The authority pertains to the interconnected electric 
reliability, electric system in the United States and excludes 
Alaska, Hawaii, and local distribution systems.
    Section 215 of the Federal Power Act requires FERC to 
designate an electric reliability organization to develop, with 
industry, standards to ensure reliable operation of the grid 
which it proposes to the Commission for approval. NERC is the 
Commission-certified electric reliability organization.
    The subject of today's hearing is blackstart, which is the 
process of restarting the grid after a blackout. When there is 
a widespread outage and offsite power is not available, 
resources that are capable of starting without a connection to 
the grid are called on to start the process of restoring the 
grid. These resources are called blackstart resources and are 
typically small diesel generators or gas-fired generating units 
which can be started without power from the grid. Larger 
hydroelectric units can also be used for blackstart because 
they require very little initial power to start and can provide 
a large amount of power quickly.
    Reliability standard EOP-005 Version 2, aptly titled 
``System Restoration from Blackstart Resources,'' requires 
responsible entities to have a system restoration plan which 
includes identifying specific blackstart units to verify the 
effectiveness of the restoration plan through testing, 
simulation and analysis of actual events, to keep the 
restoration plan up-to-date, and to ensure up-to-date system 
restoration training for operating personnel.
    Beginning in September 2014, Commission staff has been 
collaborating with NERC, the regional entities, utilities and 
grid operators on a series of studies and reports regarding 
restoring the grid after a widespread blackout.
    In May 2018, staff released the FERC-NERC-Regional Entity 
Joint Review of blackstart resource availability. The joint 
team is grateful for the participation of nine anonymous 
utilities from across the United States for their participation 
in this study. The study concluded that although some 
participants have experienced a decrease in the availability of 
blackstart resources due to the retirement of blackstart 
capable units over the past decade, the participants have 
verified that they currently have sufficient blackstart units 
and resources in their system restoration plans, as well as 
comprehensive strategies for mitigating against the loss of any 
additional blackstart resources going forward.
    The study recommended that utilities perform expanded 
testing of the blackstart process when feasible. Doing this 
requires a utility to take advantage of maintenance outages and 
other events to test certain aspects of the restoration plan so 
that real world experiences can supplement the computer 
simulations that assist in developing such plans. Additionally, 
the study recommended that utilities assess whether they rely 
on a single fuel for blackstart and mitigate their reliance on 
it, if feasible. Further detail is available in my submitted 
testimony and in the joint study.
    I thank the Committee for the opportunity to participate in 
this hearing and look forward to hearing from the other 
witnesses and answering your questions.
    [The prepared statement of Dr. Ortiz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Dr. Ortiz.
    Mr. Ott.

         STATEMENT OF ANDREW L. OTT, PRESIDENT & CEO, 
                  PJM INTERCONNECTION, L.L.C.

    Mr. Ott. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you so much for having me back 
again. I was here in January talking about cold weather 
operations, and I'm really honored to be here today to talk 
about the important topic of blackstart.
    But before I begin, I would like to acknowledge the hard 
work of our utility partners in Florida, the Carolinas, and 
Northern, excuse me, Southern Virginia, to restore power in the 
aftermath of the hurricanes, not only the current one, Michael, 
but Florence just a few weeks ago. Again, the power industry 
has been the model of cooperation and collaboration and, 
frankly, they have all of our appreciation for the types of 
good work they do.
    PJM operates the largest power grid in the nation. We serve 
almost a quarter of the electricity consumed within the United 
States, population of 65 million people, 13 states and the 
District of Columbia. Our role is three-fold: we essentially 
ensure the operation and reliability of the bulk power grid; we 
operate the competitive wholesale markets; we also coordinate 
regional planning for the future evolution of the grid.
    I want to underscore today for you a couple key points 
related to the topic of blackstart. First, reliability and 
effective restoration of service are key and top priorities for 
organizations like PJM and utilities. We work with our members 
as well as state and local governments. We take this task very 
seriously. We plan, we drill, and the location of blackstart 
resources is well known in advance. We also work with, of 
course, the federal regulator and FERC and NERC. The second is, 
restoration of service is a shared responsibility. The local 
utility, organizations like PJM which are regional transmission 
organizations, of course end-use customers themselves, federal 
and local and state authorities.
    Three key parts to this responsibility. One is restoration 
of critical resources, known as blackstart resources. So those 
blackstart resources are contracted by us in advance to provide 
such services. I do want to clear up some misconceptions about 
blackstart resources. Coal and nuclear generators are generally 
not blackstart. Blackstart resources tend to be more flexible, 
smaller units like gas units or, as Ranking Member Cantwell 
indicated, hydro resources. The priority restoration of 
facilities, end-use facilities, those that would be restored 
first, is also something we do in advance to look at how do we, 
what's the plan, if you will, once we re-enable the grid with 
blackstart resources to bring back customers in an orderly 
manner. And the last is, of course, coordination of individual 
customer backup generation and how they integrate into the 
grid.
    Our role as an RTO, again, is one of coordination and, in 
these types of events, we coordinate the start of reenergizing 
the system and work with all parties, including utilities. The 
utilities, of course, and state and local government agencies, 
again, are critical to this restoration effort because they 
have the physical energization of the grid.
    A couple things about the system. We get that the risks are 
changing. What--as you mentioned, cyberattacks, potential 
sabotage, other types of things that we really didn't dream of 
some years ago. From our perspective at PJM, the way we look at 
that, one of our main control systems, the EMS system, we 
actually have a copy of that. We have more than one copy, of 
course, we probably have four or five different--and one of 
them is air-gapped. It sits in a dark room. Should our systems 
become compromised by a cyberattack, we can jettison that whole 
system, bring up a fresh one and reconnect within a very quick, 
I can't say what it is, but a very quick time.
    One effort, too, is resilience for the grid. We look at 
how--what are the dependencies? PJM is essentially looking at, 
if you will, as resilience, the dependency--people have a 
legitimate question as we get more and more dependent upon 
natural gas resources, you'll see retirement of coal and 
nuclear.
    The question is being asked, are we vulnerable? And I think 
it's an absolutely legitimate question. We're taking that on. 
On November 1st, PJM will issue a fuel security study, looking 
out into 2023 to say, are we vulnerable? What are the pinch 
points? It's an analytical approach, and we will be, obviously, 
sharing that information with, not only yourselves, but others.
    One thing, role, you could play, as I look at things we 
need, as we look at resilience in these types of paying 
resources for the characteristics and attributes they provide. 
We've put in quite a few suggestions to FERC. Realizing they're 
a busy organization, we really need to move forward with some 
of these issues about paying resources for their reserve 
characteristics, paying resources for their fuel security 
characteristics. We really need to move on with that.
    I really thank you for your attention today, and I am ready 
for questions once we're through the initial dialogue.
    Thank you very much.
    [The prepared statement of Mr. Ott follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    The Chairman. Mr. Ott, thank you and thank you for the 
reminder that as we speak we have some truly, everyday heroes 
that are down in the southern part of the country, in Florida 
and in Georgia and the Carolinas and all that region, 
Louisiana, that are working very hard and very diligently to 
keep power on. I don't think those men and women who are in the 
thick of the disaster--their homes are in jeopardy, their 
families are in fear, and they are out working to ensure that 
there is that support there. So thank you for recognition, and 
I think we all share that appreciation.
    Mr. Torres, welcome to the Committee.

  STATEMENT OF JUAN TORRES, ASSOCIATE LABORATORY DIRECTOR FOR 
     ENERGY SYSTEMS INTEGRATION, NATIONAL RENEWABLE ENERGY 
                           LABORATORY

    Mr. Torres. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, I want to thank you for this opportunity to discuss 
the importance of blackstart and the significant role it plays 
in ensuring that our power system continues to be safe, 
reliable and resilient.
    I'm Juan Torres, and I serve as the Associate Laboratory 
Director for Energy Systems Integration at the U.S. Department 
of Energy's National Renewable Energy Laboratory, or NREL, in 
Golden, Colorado.
    I've been affiliated with federal research in our national 
laboratory system for more than 28 years. In my current 
position, I direct NREL's efforts to strengthen the security, 
resilience and sustainability of our nation's electric grid.
    In addition, I'm Vice Chair of the Department of Energy's 
Grid Modernization Laboratory Consortium, or GMLC, and I'm also 
team lead for the Consortium's Security and Resilience 
Technical Area.
    I commend the Committee for this timely discussion for what 
I know to be a critical and central issue facing our national 
utility infrastructure. It's a critical concern because the 
economic and social impacts of a major system outage can be 
catastrophic.
    In 2003, I oversaw a research team that investigated what 
came to be known as the Northeast Blackout which you mentioned 
in your introduction.
    Simply put, blackstart is a process of restarting the power 
system after a system-wide blackout; however, the blackstart 
process is not so simple. It relies upon established procedures 
and trained personnel for coordinating restart of specifically 
designated resources to energize the transmission system, bring 
on other generators and get the entire system back up and 
running.
    Restoration of the bulk power system from a blackout can be 
an intricate and multifaceted endeavor fraught with potential 
unforeseen technical challenges that are unique to each 
specific outage scenario. For example, history has shown that 
severe weather or other events may cause a simultaneous loss of 
more than one major grid element such as a power plant or 
transmission lines. Grid operators must assess each situation 
so that they are fully confident the set procedures will work 
as planned and the power system will be restored as quickly as 
possible.
    While the concept of blackstart is well established, we 
need assurance that blackstart functionality is appropriately 
considered as the grid architecture, technology, operations and 
generation portfolio continue to evolve.
    The DOE has taken a forward-looking approach, in 
partnership with utilities, to research how we can avoid 
catastrophic outage, as well as explore how new grid 
modernization technology investments might be used to provide 
blackstart capability. Let me provide some examples.
    Under the Solar Energy Innovation Network, funded by the 
DOE's Solar Energy Technologies Office, NREL is working with 
PJM, the National Association of Regulatory Utility 
Commissioners and nine teams to explore blackstart applications 
for solar energy generation with storage. We've also--several 
GMLC-funded projects with relevant research. One particular 
project led by NREL, called Grid Frequency Support from 
Distributed Inverter-Based Resources in Hawaii, explored how 
distributed energy resources can help restore grid stability 
following major events such as a loss of a major power plant or 
transmission line. Another project led by Los Alamos National 
Laboratory, titled Extreme Event Modeling, is quantifying the 
risk of extreme events prior to an occurrence. A project led by 
Lawrence Livermore National Laboratory, called CleanstartDERMS, 
is developing a distributed energy management system that will 
demonstrate the start of a microgrid following an outage. More 
research like this is needed so we can better understand the 
potential for using these technologies for broader blackstart 
applications.
    Because there are cyber threats to our power system, it is 
also important to consider the effects that a major cyberattack 
may have on system restoration. Additionally, the topic of 
blackstart from a cyber-induced outage is an opportune area for 
research by our national laboratories. Cybersecurity must be 
incorporated into every aspect of blackstart planning and 
execution.
    Our ability to bounce back from a widespread power outage 
depends on what must be a broadly coordinated effort in 
partnership with all relevant stakeholders. As our power grid 
continues to evolve, it will be critically important to assure 
that our blackstart procedures remain congruent with the grid 
modernization investments and that they are exercised in 
context of the evolving spectrum of threats.
    Thank you for the privilege to address this Committee.
    [The prepared statement of Mr. Torres follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Mr. Torres.
    Ms. Ditto, welcome.

          STATEMENT OF JOY DITTO, PRESIDENT AND CEO, 
                  UTILITIES TECHNOLOGY COUNCIL

    Ms. Ditto. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, I would also echo the sentiments 
expressed already about Hurricanes Michael and Florence and the 
crews there as well as the people affected by that storm, and 
we wish them Godspeed.
    I'm extremely honored to testify today. I would like to 
begin by asking a few rhetorical questions. How many people 
know that utilities operate their own sophisticated 
telecommunications networks and have done so for over 70 years? 
And how many know that these networks are integral to the 
reliability and resilience of the electric grid, including the 
careful and delicate process of restoring power after a 
widespread outage? Finally, how many people know that policies 
made by an agency, the Federal Communications Commission, 
seemingly unrelated to the oversight of the electric grid, can, 
in fact, impact its reliability and resilience?
    Even having represented electric utilities for 15 years at 
the time I became UTC's CEO, I didn't fully appreciate the key 
nature of communications to grid performance. It's become clear 
that many regulators, government agencies and stakeholders lack 
the understanding of both the communications networks deployed 
by utilities and the policies undermining their ability to 
maintain reliability. The need for such understanding is 
greater than ever as the industry faces numerous threats, both 
natural and manmade.
    The cybersecurity threat is increasing at the same time the 
government and the public require greater levels of reliability 
and flexibility from an electric grid that underpins our modern 
way of life. The government-electric sector partnership that 
has emerged to combat these threats has already improved 
recovery and response efforts. This special relationship 
between the electric industry and the Federal Government to 
prepare, plan for and respond to disasters is only mirrored in 
a few other critical infrastructure sectors.
    Yet, the FCC equates the electric sector with any other 
commercial enterprise. This disconnect must be rectified. UTC 
believes that it can be through greater education and 
collaboration among regulatory agencies such as the FCC and the 
Federal Energy Regulatory Commission.
    UTC has a 70-year-old history representing utilities on 
their deployment of reliable and resilient communication 
systems. Most of our 200 core utility members are electric 
utilities of various sizes, including investor-owned, publicly-
owned, cooperatively-owned and even federally-owned. All our 
members either own, maintain and/or operate extensive internal 
communication systems to help ensure the safe, reliable and 
secure delivery of their essential services.
    Such communications networks also enable the higher levels 
of granularity needed to balance the electric grid as variable 
energy resources and other cutting-edge technologies have 
emerged. Utilities' private telecommunications networks are a 
combination of both wired and wireless technologies. Since the 
'80s, utilities have also used SCADA, a type of industrial 
control system that transmits data over utility networks from 
the field into a control center. Utilities have more recently 
deployed a variety of new technologies on their systems to 
enhance situational awareness and improve efficiency, 
reliability and safety.
    As FERC and NERC's recent reports on grid resilience have 
illustrated, utility communications are key to their ability to 
return energy to the grid after a system-wide blackout. UTC 
agrees with the finding in these reports.
    They also highlight the investments utilities have made to 
ensure reliable communications during system-wide blackouts. 
For example, utilities prepare for the possibility of losing 
SCADA or other critical data communications. In such cases, 
they can default to voice communications. Typically deployed 
via push-to-talk radios, like those used by firefighters and 
police officers, these more basic systems can help enable the 
carefully coordinated blackstart processes.
    Like any wireless network or device, utilities' wireless 
systems need radio frequency spectrum to function. 
Interference, which is caused by too much wireless traffic in a 
band, can disrupt signals, potentially disabling a critical 
wireless transmission. Therefore, access to adequate and 
interference-free spectrum is essential.
    Spectrum policy resides at the FCC, the oversight of which, 
I realize, is outside of this Committee's jurisdiction. 
However, utilities' access to interference-free spectrum is 
integral to the provision of reliable electric service. 
Unfortunately, several proceedings are pending at the FCC that 
threaten electric reliability and resilience; one would open 
the 6 GHz spectrum band to unlicensed mobile users subjecting 
utilities, railroads and public safety to potentially harmful 
interference.
    It's time for the FERC and the FCC to hold discussions 
about the growing interdependencies between the energy and 
telecommunications industries. Such meetings will build 
understanding between the two agencies and the industries they 
regulate. UTC urges this Committee to take a leading role in 
initiating such a dialogue.
    Thank you for this opportunity to testify and I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Ditto follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Ms. Ditto.
    Mr. Galloway, welcome to the Committee.

STATEMENT OF THOMAS J. GALLOWAY, SR., PRESIDENT AND CEO, NORTH 
                  AMERICAN TRANSMISSION FORUM

    Mr. Galloway. Chair Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you for inviting me to testify 
today.
    My name is Tom Galloway, and I'm the CEO of the North 
American Transmission Forum. The Forum is a voluntary 
membership of transmission owners and operators with a mission 
to promote excellence in reliable, secure and resilient 
operation of North America's electric transmission system. We 
believe that timely sharing of information among Forum members, 
such as best practices and operating experience, is key to 
advancing performance beyond mandatory levels. Our 89 members 
of various types and sizes, together, represent over 80 percent 
of the peak electrical load in the U.S. and Canada.
    I'll focus primarily on resiliency which deals with high-
impact, low-frequency events, sometimes called Black Sky 
events, that could cause a system-wide outage. Black Sky events 
require cross-sector collaboration, alignment of restoration 
priorities, mutual aid and robust communications. Given the 
importance of these topics, we've made several of our internal 
documents public and I've attached those as part of my written 
testimony, including a summary of backup capabilities and how 
to cope with the loss of some standard operator tools.
    I'll cover five main points in my oral testimony.
    First, the restoration varies extensively based on the 
outage specifics, including the scope, duration, equipment 
damage and access to restoration areas. There are many 
commonalities to be sure, but no two outages are exactly alike. 
And the industry needs and has well thought out, prioritized, 
and tested restoration plans, but they also need agile 
decision-making that can navigate the complex and unpresuming 
circumstances. Blackstart resources are rarely used but are 
critical when portions of the system cannot be reenergized by 
connecting to adjacent energized systems.
    Point two, severe weather has caused the majority of recent 
significant events. And while those impacts have been profound, 
such as those being observed in the Hurricane Michael 
currently, there are several positives. The industry has 
applied lessons learned and improved comparatively in a number 
of cases. So, for example, Florida Power implemented a number 
of significant upgrades following hurricanes in the 2004-2005 
season. As a result, their performance was demonstratively 
better in 2017 with customer outage times essentially cut in 
half from a much more severe hurricane Irma.
    Point number three, the scope and pace of industry change 
is unprecedented. And while some of these changes add 
significant reliability and economic benefits, they do add 
complexity to both operate the system and restore from outages. 
These changes include generation of fuel mix, increased use of 
interconnected digital technologies at both physical and cyber 
threats. Areas of continued focus related to these topics 
include interoperability issues between sectors and the 
security of an increasingly interconnected digital grid.
    Point four, there are a number of beneficial no-regrets 
actions that are underway having to do with equipment spares, 
testing, mutual aid and drills. For example, Con Edison has 
developed, tested and deployed resiliency transformers which 
are smaller modular devices that could be installed quickly in 
a variety of system locations if their primarily used 
transformers are damaged for some reason. Likewise, Con Ed is 
testing feasibility of blackstart recovery in the midst of an 
ongoing cyberattack.
    The mutual aid process in the industry is well established 
and evolving. In Hurricane Irma, that I mentioned earlier, 
Florida Power imported over 11,000 linemen from across the 
company--from across the country as far away as California--to 
help aid in that restoration, and mutual aid efforts are now 
being evolved to include specialized expertise such as 
cybersecurity.
    The industry is also conducting increasingly sophisticated 
drills such as last week's Southern California Edison conducted 
their fifth annual resilient grid exercise. This simulated a 
combined physical and cyber attack that impacted Southern 
California Edison and some of their adjacent systems. They also 
introduced losses of normal communication and some of the 
normal operative tools to further complicate the scenarios. The 
after-action discussions were very robust, including 
representation of cross-sector and governmental representatives 
that focused on the need to align our priorities and effective 
educations.
    I'll summarize very quickly. In terms of going forward, I 
believe that industry and regulators should align on resiliency 
priorities, focus on no-regrets actions that are applicable to 
multiple hazards that promote recovery for prudent investments. 
And I think there's a strong focus needed on communications 
capabilities, referred to by Ms. Ditto, both in terms of 
technologies, redundancy, diversity and also communication 
protocols.
    Thank you for the opportunity.
    [The prepared statement of Mr. Galloway follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairman. Thank you, Mr. Galloway.
    Mr. Yardley, welcome.

 STATEMENT OF TIMOTHY M. YARDLEY, SENIOR ASSOCIATE DIRECTOR OF 
    TECHNOLOGY AND WORKFORCE DEVELOPMENT, INFORMATION TRUST 
     INSTITUTE, UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Mr. Yardley. Good morning, Chairwoman Murkowski, Ranking 
Member Cantwell and distinguished members of the Committee. 
Thank you for the opportunity to speak today.
    My name is Tim Yardley, and I'm a Senior Researcher and 
Associate Director at the Information Trust Institute at the 
University of Illinois, Urbana-Champaign. My research focuses 
on cyber resiliency and critical infrastructure.
    Let me start by saying the cyber threat to the grid is real 
and the threat of potential blackstart is here. The time to act 
is now.
    It is critical that the Committee understands the 
following. Much existing work has already been done and that 
work is tremendously important; however, we need to think 
broader about what it means to be cyber resilient. We need to 
focus on increasing the skills and capabilities of our people 
as much, if not more, than we focus on the technology, and we 
need directed funding and test beds to realize that. We need to 
think through the policies, procedures, people, skills, tools 
and the requirements necessary for those items to function 
before they are called to action. And lastly, these 
capabilities can be achieved only if academia, industry and 
government work closely together in focused research, 
development and education programs and funding should increase 
to support past successes, like those at the University of 
Illinois, and to create new ones elsewhere.
    With that in mind, even if there remains work to be done, I 
rest assured that our nation is relatively prepared to address 
the logistics of a traditional blackstart scenario. The 
dedicated commitment of all of the first responders, echoed in 
the rest of the panel today, to pull together is second to 
none. I fear, though, that we are still not prepared to do so 
in the face of a cyberattack that eliminates our ability to 
trust the systems that we use to operate and restore our grid. 
There is urgency necessary in closing that gap. The risk is 
growing and all of us involved know it. But we must put our 
best minds on solving it.
    As you have heard in prior testimony, cyber resiliency aims 
to protect through established cybersecurity techniques but 
acknowledges that such protections will eventually fail. For 
over a decade now, much attention and funding has been placed 
on cybersecurity for the grid, but cyber resiliency is much 
more than just cybersecurity and it's only recently gaining 
real focus. The prior investment in cybersecurity has been well 
spent and there is continued need, but we must go further. We 
must understand what happens when those protections fail us.
    One of my most relevant research efforts falls under the 
DARPA RADICS program, which stands for Rapid Attack Detection, 
Isolation and Characterization Systems. The goal of that 
program is to enable blackstart recovery of the power grid 
amidst a cyberattack.
    RADICS research is developing technology that cybersecurity 
personnel, power engineers and first responders, such as the 
National Guard, can utilize to accelerate restoration of cyber-
impacted electrical systems. This is not a tabletop. This is 
real technology being tested in the field.
    One of the key tenants in this program, and part of my 
role, is the development of test bed environments that enable 
exactly that and aiding in the creation of the exercise format 
that enables the evaluation and improvement of those 
technologies as they are developed before they are called to 
action.
    By creating these environments and developing scenarios 
that allow practitioners to put these tools to work, great 
progress can be made on preparedness as we continue to invest 
in cyber resiliency. This effort, along with years of prior 
work funded by DOE OE CEDS, provides me with direct experience 
in understanding where the tools that we have built succeed, 
and where they fail us.
    I look at test beds and many look at test bed environments 
as a piece of a bigger puzzle but as an area of focus on their 
own. That needs to change. And the full potential of test beds 
and their capabilities need to be realized to advance our state 
of security.
    Imagine a facility that allows for testing our systems in 
unprecedented ways, that enables innovative training for our 
current and future workforce, that exposes our system to 
sophisticated attacks and allows us to understand what they 
look like and how to address them in practice, that puts our 
policies and procedures to task and does all of this repeatedly 
in days or weeks, rather than months, years or decades.
    This system also needs to be flexible. It needs to adapt to 
the needs, the system's understudy and the adversarial threat 
landscape as it evolves.
    We must be prepared and test beds can help us do that, but 
such a facility does not fully exist today. Great strides have 
been made in academia and national labs, and with the right 
combination of funding and people it can be fully realized.
    We are only as strong as our weakest link and when put into 
the context of cyber resiliency for the grid, that weakest link 
is likely our staffing. Many organizations have cybersecurity-
focused staff on hand, as well as third party entities 
contracted to full response actions. In the end, however, we 
simply do not have enough people to deal with a large-scale 
attack. Even if we put our best people on the ground, without 
the right tools and practiced skills of using those tools, they 
will be inefficient at best in the face of a determined and 
sophisticated adversary.
    We can and should put money into technology, but without 
the people to leverage it appropriately, we are still at a 
loss. We must invest more in our people. We have to think 
outside the box and we have to innovate in how we train people. 
Staffing in a large-scale emergency response is often one of 
the most difficult undertakings, so we need to address it 
proactively and increase the breadth of resources now. Only 
together can we solve these problems.
    Thank you.
    [The prepared statement of Mr. Yardley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    The Chairman. Thank you, Mr. Yardley.
    A very important reminder at the end that with all the 
technologies, it is still the human beings that we need to have 
on the ground working through so many of these. I appreciate 
that.
    This has been a great discussion, really. I thank you all. 
You clearly have identified where these vulnerabilities are 
when, if we were to have a significant crisis and this whole 
issue of blackstart, where is the vulnerability? Are you able 
to test as you need? Are you able to communicate during the 
time of the disaster? The vulnerability of being reliant on a 
single fuel source. The cost, the people, the trained 
individuals. So again, very good conversation.
    I want to start my questions off about the reliance on a 
single fuel source for blackstart. The joint NERC and FERC 
report that many of you have cited cautions us against reliance 
on a single fuel for blackstart capabilities. But do we have a 
sense as to how many blackstart power plants actually rely on a 
single fuel source? And if we can identify that, what progress 
are we making then toward diversification for multiple fuel 
sources? Dr. Ortiz, since you raised it, and Mr. Ott, you have 
been very involved with it, if you could speak to that.
    Also, I am curious to know more how hydropower can play 
into this fuel source as that alternative. As Senator Cantwell 
has mentioned, she is blessed with extraordinary hydro 
resources, but when you think about a fuel source, a ready fuel 
source that is just sitting there with a level of availability 
that, perhaps, you don't see with outside fuel sources like 
storage of diesel or gas. So if you could speak to that, both 
of you.
    Go ahead, Dr. Ortiz.
    Dr. Ortiz. Yeah, thank you very much, Madam Chairman.
    By way of introduction, let me note that in our study, one 
of the key recommendations was that an entity identify areas 
where its blackstart generators depend on a single fuel 
source----
    The Chairman. Okay.
    Dr. Ortiz. ----and look toward options for mitigating the 
potential risk of that fuel source not being available. There 
are a number of ways in which to do this. They could include 
firm contracts with alternative fuel sources, as well as 
working with local regulators to ensure appropriate air permits 
for, say, diesel or other fuels to be used.
    Unfortunately, with respect to specific resources and 
specific plans, given that our study drew upon the anonymous 
participation of a number of utilities, I can't speak to any 
specific cases. However, in general, the study team, in looking 
at some of the best practices at the participating utilities, 
saw that those that had sought, that those that had identified 
this risk, had been able to identify means in which to mitigate 
it.
    The Chairman. Mr. Ott.
    Mr. Ott. Thank you, Senator Murkowski.
    The issue--we have raised the issue and, certainly, talking 
about the issue of single fuel dependence, it's not only on 
blackstart but more globally, I think. So what we've addressed 
is we've started a process to have a discussion with our 
stakeholders. I don't think it's a widespread issue, meaning 50 
percent, but there is some vulnerability there.
    So we are addressing it through our request for proposals 
that we issue for blackstart services. We are addressing it 
through discussions with stakeholders. The reality check is it 
becomes more expensive when you ask for more fuel diversity. 
But certainly units like hydro and other diverse units, whether 
it be the combination of solar and battery that's still 
experimental, but it's those types of things that will help 
reduce the cost and similarly with other types of fuel security 
questions. As long as you identify the service and don't fall 
into the trap of saying I want a specific technology and I want 
to save a specific type of plant, then it becomes a little less 
expensive. But certainly, we're on it. I would say, certainly 
it is a vulnerability, but it's not a widespread vulnerability.
    The Chairman. But it is a vulnerability that you are 
highlighting and not directing these are your preferred 
alternatives. It is what works for you within the region for 
that particular utility.
    Mr. Ott. And what's key is we're stating the requirement is 
fuel security and a diverse, you know, no dependency, no single 
point of failure. So the requirement is not you have to be oil, 
or you have to be gas, or you have to be hydro, and I think 
that helps lower the expense because you're allowing more 
diverse resources to come in and provide the service and the 
service is security of supply, essentially.
    And for blackstart, you know, we don't want to have a 
single point--I mean, if the system is going down and you have 
very few options, you don't want that single point of failure 
to rear its head in a surprise and, certainly, we are on that 
and we are taking action.
    The Chairman. I appreciate that.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and I thank the 
witnesses. You have all provided--I think I could ask a 
thousand questions--but I will try to be focused.
    You brought up some really good points, and I would say 
just from my own experiences in the State of Washington, we had 
a horrific slide that killed 40 people, called ``the Oso,'' 
that basically cut our community and response in half. 
Literally, we did not have broadband communication nor the 
ability to get to the community because the slide isolated 
everybody. You literally had to drive around three hours to 
just communicate with the individuals. It made the response and 
the recovery so challenging, and we have had other natural 
disasters in our state that just bring up this entire 
communication element of the response.
    Ms. Ditto, you mentioned that, and Mr. Yardley, you 
mentioned it. Mr. Galloway, you mentioned it too. What do we 
need to do on the communication side to make sure that the work 
on the restart is coordinated as well? Because I think this is 
something--I know that movie Blackhat. I mean, they literally 
were--or wait a minute, not Blackhat. I think it was the Bruce 
Willis movie, Live, whatever it was called, something Live 
Free, Die Hard.
    [Laughter.]
    But he--I have watched many of these cyber--but anyway that 
was----
    Senator Gardner. Stapleton Airport, just for----
    Senator Cantwell. ----that was a fire sale issue.
    But the point was that they had to go to the ham radio 
operators, like the only people left to communicate were the 
ham radio operators.
    What do we need to do on the communication side here?
    Ms. Ditto. Thank you, Senator, for that question. I can 
lead off, if that's okay?
    So, first of all, I'll just say, just, sort of, state the 
obvious. Digital communications is why we have a cyber 
vulnerability in the first place. But those same digital 
communications enable a much greater efficiency in our grid 
that enables variable energy resources and other types of 
resources that we all care about and want, including battery 
storage and solar rooftop and some of the things on the edge of 
the grid.
    So there are some really positives about communication, but 
they also create vulnerabilities that we have to manage that 
risk over time, including doing some of the research that was 
suggested by Mr. Yardley.
    But when it comes to this idea of a real Black Sky event or 
a blackstart restoration event, as I mentioned in my testimony, 
utilities themselves own and operate their own networks, in 
most cases, because the traditional communication carriers just 
aren't willing or able to provide the level of reliability 
that's needed by utilities in these situations.
    So if digital communications are lost because of a 
cyberattack or because of some other situation where your fiber 
lines are cut or something like that, we still can default in 
most cases to voice communications over radios, kind of like 
you were mentioning with the ham radio situation. We have 
microwave-based systems that we've built and maintain and we 
have backup power for them because communication systems 
require electricity to operate. So we have backup power 
generation and fuel onsite. Some utilities have fuel onsite for 
those backup power generation--backup power generators for 
their communication systems of 6-10 days. And that's part of a 
standard that the utility has developed, the fuel onsite for 
those backup generators, for communications only.
    There are things we're doing already, but some of these 
policy areas could be addressed.
    Senator Cantwell. Well, I wish, and I want to hear from Mr. 
Yardley, but I wish we would address these because we have real 
life examples now. We can go back to our Carlton Complex fire 
where the Okanagan Valley was basically on fire. The 
communication lines burned up, and you could not even 
communicate with individuals.
    I think we have some test beds, but I want to hear from Mr. 
Yardley about your thoughts.
    Mr. Yardley. I think there's really two key issues.
    One is the physical attack on the communications, blocking 
spectrum, radios not being available, lines being down, et 
cetera, due to issues from that perspective. But there's also 
the cyber. What if they're all there, but you can't use them 
because you can't trust them? They've been attacked themselves. 
So what do you do then? And further, how do you--it's one thing 
to support the normal operations, but how do you support the 
forensic response as well? How do you enable that channel of 
communication which may be completely different than 
traditional operations and at the same time, your number one 
priority is to support the normal operations, but you have to 
weigh that against the ability of forensically communicating to 
be able to support that operation and enable it in the first 
place?
    The second aspect is that with comms under attack 
themselves, we're good at defending our communications 
networks, right? The internet is defended everyday from attack 
and subversion, but we see it happen still. So what's to say 
that an adversary would not do that when they were attacking 
the grid, that they wouldn't have a multipronged attack that 
attacks not just the grid, but also attacks the communications 
as well?
    So we have to think about it broader, not just in the 
aspect of are comms available, but can we trust those comms? Is 
the adversary listening? Is the adversary manipulating those 
communications while we go?
    Senator Cantwell. Do we have enough resources here? How do 
we get a full understanding of the resources needed? I mean, 
you are coming to us, you know, the home of mosaic and 
producing, really, what translated the DARPA information into a 
browser. What else do we need to do to give institutions like 
you and others the resources?
    Mr. Yardley. Well, I think that's a difficult thing, right? 
There are people that are needed, right? The people that can 
train the material that they need to train about and adapting 
that. But there's also gaining the interest. The aging 
workforce has been reluctant, in some ways, to engage in some 
of the more modern technologies and you're seeing that 
adaptation come in with the younger workforce coming to market. 
But they don't have the background that the existing workforce 
does on the rest of the systems.
    And how do you marry those two together, where you have 
people that are trained on the physical aspects of the system 
but that are also as well versed on the cyber aspects of the 
system? How do you create that hybrid? We've been trying to do 
that for years at the University of Illinois in collaboration 
with a lot of other academics, but it's a very difficult 
problem to solve.
    And I think test beds are a way that you can help do that, 
by getting people hands-on experience with these types of stuff 
so that they can actually say, alright, look, I am doing my 
physical function that I have, but I have these cyber 
operations that I have to deal with and understand and address 
at the same time.
    Senator Cantwell. Well, I know I am way over time but, 
Madam Chair, I think we should have a WPPA program for 
cybersecurity. We should just say, calling all Americans, we 
will help you get educated in this area if you help us. I think 
there are a lot of young people in the Northwest, if they heard 
that call, who would respond to it. I mean, we get cheap hydro, 
we get cyber, we get the internet. But we need to sharpen our 
call that we need them and we need them to respond to this. We 
need thousands, hundreds of thousands of people in this 
infrastructure call. So I hope we can figure out a way to 
promote that.
    The Chairman. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair. Thank you to all 
the witnesses for your testimony today and your great work in 
this field.
    I am particularly pleased to have Mr. Torres joining us 
today from the National Renewable Energy Laboratory and also 
particularly pleased to have him here because of his hometown, 
La Junta, Colorado, a small town in Eastern Colorado. To see a 
small-town Colorado kid of the Eastern Plains grow up and run a 
laboratory with world-renowned scientists is pretty doggone 
exciting and says something great about this country. So thank 
you very much for your leadership and for being here.
    I will start with you and the questions that I have.
    We had a chance to visit both at NREL when Secretary Perry 
made the visit a couple of months ago to Golden and, obviously, 
in the office this morning, we had a chance to talk. We talked 
about resiliency. We talked about our electric grid. Your 
understanding of the grid and the potential we face for 
significant blackouts and, you know, we had some power outages 
just this past weekend. It started snowing in Colorado, so the 
ski slopes will be open. We are preparing for that. Get your 
tickets now. Everybody can reserve those hotel rooms. But we 
are starting to see--we had some blackouts, right, because we 
had tree branches falling on the power lines and some of that 
first snow. We are talking about events that could be 
catastrophic, not just a neighborhood that is out, and what 
that could mean long-term.
    What areas of research do you see as most vital to our 
nation to avoid risks of these blackouts, catastrophic-style 
blackouts? What area is most vital for our nation to avoid 
these risks? How do we quickly and effectively recover from 
these types of occurrences?
    Mr. Torres. I think there's opportunities in some 
technologies, in distributed generation. Energy storage, I 
think, is a big area, especially coupled with some of the new 
renewable sources that actually are becoming more abundant, 
like solar and wind, specifically.
    I think there's a need for more research around inverter 
controls and how you actually network some of these various 
devices in a consistent way, replicable way.
    I think there is opportunity to see how we can better get 
inverter-based technologies to interact with the traditional 
inertia-based generators as well.
    And, of course, the cybersecurity aspect, I think, is still 
really important. We need to understand that much better. As we 
bring in some of these technologies that have not traditionally 
been used for blackstart, we may need to--we need to start 
looking at supply chain challenges there because they have not 
been on the list for that. So----
    Senator Gardner. Supply chain challenges in terms of 
cybersecurity? Where those products are----
    Mr. Torres. Exactly.
    Senator Gardner. ----and other things?
    Mr. Torres. Absolutely.
    I think there--because the focus has been on a lot of the 
technologies that have traditionally been part of blackstart. 
As we start to incorporate some of these new technologies, that 
has to be on the list as well and understanding the life cycle 
supply chain.
    Senator Gardner. Thank you.
    Senator Murkowski, I think, talked a little bit about 
hydropower and the application for hydropower in this scenario.
    If hydropower is going to be an effective tool in such an 
incident, are we talking about the applicability of micro 
hydro, small hydropower projects? Are we talking about 
significant-sized, pump-backed projects like we have at Twin 
Lakes in Colorado?
    Mr. Torres. Right. So I think hydropower can play an 
important role in blackstart. It's one of the most economically 
effective and efficient generation sources for blackstart 
because it does not need a lot of power to get its turbines 
running as you might need for some of these other generation 
types. I think where it is an abundant resource, where water is 
an abundant resource, it makes tremendous sense. We don't have 
that everywhere, but I think there's opportunity at different 
sizes.
    Senator Gardner. At different sizes, so a smaller project 
works just as well as a bigger project?
    Mr. Torres. They could potentially support at smaller sizes 
as well, absolutely.
    Senator Gardner. Very good. Thank you. Thank you for that.
    Dr. Ortiz, I was interested in the studies that you 
mentioned and your study that you talked about, the joint 
study. A team recommended utilities prepare for widespread 
blackouts by talking about the vulnerability of backup power, 
adequacy of communications, personnel requirements, perform 
manual restoration activities without EMS or SCADA. Have the 
utilities completed those assessments? Are there any early 
results that you can share?
    Dr. Ortiz. Thank you for the question, Senator.
    I should note that the study made these recommendations to 
the utility industry based upon our review of their restoration 
plans, looking specifically at their ability to restore their 
systems without access to SCADA, EMS or other communication 
means or traditional communication means.
    I thank the eight utilities that participated with us. 
However, this was not a compliance exercise, nor a specific 
compliance, set of compliance guidance, but rather just a set 
of recommendations. So, in particular, the staff has not 
followed up with the general industry on these topics. If you'd 
like I can go back to the team leaders, as well as our partners 
at NERC and the regional entities to see if they have learned 
anything in addition.
    Senator Gardner. Thank you very much, Dr. Ortiz.
    Ms. Ditto, the comment you made, I believe, talking about 
FCC and FERC, and I'm out of time, so quickly. There is some 
communication or is there none?
    Ms. Ditto. You know, that's actually a better question to 
FERC, but I don't think there is any kind of formal 
communication between the two agencies right now.
    So we would ask that to be formalized in some way, whether 
through an MOU or a less formal process like they undertake 
with the NRC. There are some precedents for that because they 
really do need to understand each other, and we're not sure 
that that situational awareness is occurring from either agency 
right now.
    Senator Gardner. Great. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chair, and thank you all 
for being here.
    My first question is going to be about blackstart itself. 
How many megawatts of blackstart capacity do we have in the 
United States? If anyone can answer that? And then, how many 
megawatts of blackstart capacity do we have in PJM?
    Mr. Ott.
    Mr. Ott. Thank you, Senator Manchin.
    Again, blackstart is a very unique service.
    Senator Manchin. Sure.
    Mr. Ott. And so, as far as the total megawatts, it's much, 
much smaller.
    Senator Manchin. Sure.
    Mr. Ott. We're in the hundreds of megawatts type of----
    Senator Manchin. Maybe I can ask the question a little bit 
differently.
    Mr. Ott. Okay.
    Senator Manchin. How many megawatts does it take to start 
up a plant? So let's use a 900-megawatt coal-fired plant. It 
goes down completely. The whole system collapses. How many 
megawatts?
    Mr. Ott. Right. Generally speaking in a plant that size, 
you're probably looking at between 10 and 20 megawatts to get 
everything running.
    Senator Manchin. To get it back up and running?
    Mr. Ott. To get it moving.
    But the point is, is there's other, you have to connect to 
it. You have to connect through the transmission to it.
    Senator Manchin. Sure.
    Mr. Ott. So there's some extra stuff there.
    But you're in the hundreds of megawatts type for the 
system. But nuclear plants, of course, require a little bit 
more blackstart.
    Senator Manchin. I am understanding that hydroelectric is 
the best backup system we have for blackstarts?
    Mr. Ott. It certainly is a capable resource but my opinion 
is as, obviously, a very conservative power operator, I want 
diverse sets of resources. I want some hydro, some small gas, 
some small oil. I want some stuff spread around because you 
only have hydro in certain spots.
    Senator Manchin. Anybody else on how much blackstart 
capability we have? Nobody? If anybody could find that out, I 
would appreciate it because I want to know how vulnerable we 
are.
    We are talking about this and it has not happened, but we 
have had some historic blackouts and challenges over the years, 
and we could be in a very dire situation. I am concerned about 
the reliability of the grid.
    Yes, sir, Mr. Ott.
    Mr. Ott. I can just give you a little bit more information.
    So we actually contract, PJM contracts on behalf of the 
region--remember we're about 25 percent of the U.S. So, we 
actually look at the plan, say how much do we need and we 
actually issue long-term or yearly or multi-year contracts to 
secure it.
    I can tell you for PJM, we've secured what we think we need 
based on the blackstart plan. And again, not to say that we are 
done, there's more to do.
    I think fuel diversity is an issue, meaning that we have an 
overdependence on one type. But I will tell you, we do, we've 
contracted----
    Senator Manchin. Since I am in your system, PJM basically 
takes care of my State of West Virginia. We have put an awful 
lot of power into the PJM system.
    A couple of things I wanted to address is, first of all, in 
2009, the national average price of electricity was $0.0982 per 
kilowatt-hour. In West Virginia, it was $0.0784 per kilowatt-
hour. Today, the national average is $0.1312 per kilowatt-hour. 
In West Virginia it is $0.1142 per kilowatt-hour, and we have 
more energy than we have ever had.
    So something is causing the people who are struggling day-
to-day, month-to-month, to pay a much higher price, and it 
doesn't make any sense to me whatsoever.
    Also, at PJM you have a total of 4,266 megawatts that you 
are going to retire, 2018 through 2020. The average age of the 
retiring units is 43 years. The size is an average of 249 
megawatts. Nine of those units, totaling 3,600 megawatts, are 
large enough that I would think at least some of these were 
probably relied upon during the bomb cyclone or all the other 
cyclones. What are you going to do when they go down? We have 
had this conversation before.
    Mr. Ott. Yeah, so essentially for the units that are 
retiring, we've done a study and actually released that study 
to say that for our reliability criteria, the NERC reliability 
criteria, they can retire on schedule and not violate any of 
the criteria. However, one thing that I think is a very 
legitimate concern and question that's been asked by yourself 
and others is at what point, as we have coal and nuclear 
retiring and more and more dependence on gas, at what point 
would we, in fact, have what I would call a fuel security or an 
overdependency problem on a grid the size of PJM which would be 
a significant risk.
    We will release a study on that very question, 
incorporating these retirements into that on November 1st. We 
will actually issue and say we've actually looked at this 
analytically, looked into the future, looked at even more 
retirements.
    Senator Manchin. Let me just say, if I can----
    Mr. Ott. So we are addressing the question.
    Senator Manchin. My time is running, and anybody can answer 
this question here because we have been working on, and I am 
concerned about, the reliability. We have an awful lot of coal, 
natural gas, we have hydro, we have wind. We have been very 
blessed in West Virginia. We are, as you know, a big net 
exporter of power, and we do the heavy lifting. We don't 
complain about that.
    But we worry about the resilience of our system. With that 
being said, I have been a big supporter of, basically, the 
Defense Act that makes sure that we keep the best of the best, 
as far as in coal-fired plants and nuclear plants that are up 
to specs and have the latest technology in operation, for at 
least two years until you can get through this because a lot of 
analytics are going on right now. If this all comes down and 
these retirements go into an accelerated rate, I believe that 
the grid is going to be jeopardized, the security of our nation 
is going to be jeopardized.
    What is you all's feeling as far as the Defense Act giving 
us the ability, at least a 24-month ability, to find out what 
direction we are going to go and how we get there? Anybody want 
to talk on that one?
    Mr. Ott. I can certainly offer a comment.
    I think the retirements in question have been announced. 
They're for 2021-2022 timeframe. Our analytics are looking at 
those timeframes and, certainly, I think we do have time, 
should we find a problem, to take action within our systems.
    So by offering we would be, instead of the Federal 
Government stepping in, allow us to complete our analysis in 
the time given. But at this point--I'll yield back because it's 
time.
    Senator Manchin. But my thing is, this basically makes no 
sense to West Virginians at all to produce as much power as we 
produce, to be paying higher prices that are unnecessary and 
having plants come offline that are basically gouging West 
Virginians. This is what they cannot understand. We have lower 
gas prices than we have had for the last 20 years. We are 
pumping more gas out of our state than ever before, and our 
people are paying higher prices. It makes no sense, sir. We are 
getting screwed.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Hoeven.
    Senator Hoeven. Dr. Ortiz, how frequently do utilities have 
to test blackstart units to ensure they can function in the 
event of a system-wide blackout?
    Dr. Ortiz. I'm reading, actually, directly from the 
reliability standard. That's EOP-005, Version 2, Requirement 9 
says, ``Each transmission operator shall have blackstart 
resource testing requirements to verify that each blackstart 
resource is capable of meeting the requirements of its plan.'' 
These resources--``The frequency of testing such that each 
blackstart resource is tested at least once every three 
calendar years.''
    Senator Hoeven. Is that enough?
    Dr. Ortiz. It is what the reliability standards--the way 
that they are developed is through a consensus process 
developed by NERC through industry with industry experts 
participating in the panel and with FERC staff members 
observing. Then the Commission takes the filing from NERC and 
then approves or directs changes.
    This particular standard has been approved and is in 
effect. And, in fact, in January a new version of this standard 
has been approved and will become effective shortly. So from 
the standpoint of industry, as well as the experts at NERC and 
our staff review and the recommendations to the Commission and 
the Commission's determination, yes, it is enough.
    Senator Hoeven. Mr. Ott.
    Mr. Ott. Yes, the requirements, certainly, I agree with Mr. 
Ortiz, is three years, but at PJM we test every year because we 
feel going above the standard is prudent in this particular 
case. At least in our region, we would test every year--or we 
do test every year.
    Senator Hoeven. Are you typical or atypical?
    Mr. Ott. I'm not sure. I'd have to get back to you on that. 
I think my experience with the industry is people tend to 
exceed the standard. So I would think we're not alone.
    Senator Hoeven. Are there regulations that are an 
impediment or things that Congress could do that would be 
helpful in regard to this issue?
    Mr. Ott. I think, in general, the blackstart, the 
controversy over blackstart is the expense, the cost of it. And 
there's been some controversy over the cost.
    One other issue with blackstart is some of the emission 
rules in the emergency situation, getting relief from emission 
characteristics and rules is also something that we have to 
make sure we can streamline.
    Senator Hoeven. Ms. Ditto, you mentioned in your testimony 
that a Black Sky event, or a blackstart situation, would 
include the failure of not only our electric utilities but also 
our information and communication technology networks. Can you 
speak further about the importance of the communications aspect 
and how you deal with it?
    Ms. Ditto. Yes, thank you, Senator, for the question.
    As I mentioned in my testimony, utilities provide their own 
information and communications technology networks for the very 
reason that they need high levels of reliability. They need 
those communications networks to be available to them in 
restoration.
    In a Black Sky, very serious situation, where we have a 
blackstart scenario, there could have been a cybersecurity 
event precipitating that. So utilities also have redundancy in 
their system to go to voice communications, as I mentioned 
earlier, and that's typically radio-based.
    So they do have redundancy in their systems to deal with a 
cybersecurity attack. Will that get them everything that they 
need? Perhaps not, particularly given that there are policies 
being undertaken at the Federal Communications Commission 
around provision of those radio systems. You need radio 
spectrum to operate them and if you have interference during a 
restoration or a blackstart, you're not going to have the level 
of communications you need to enable those blackstart 
operations.
    But we do maintain and manage our communications systems 
very well and we test them, and we also have fuel backup onsite 
for our communications systems, specifically.
    Senator Hoeven. That is tested at least once every three 
years?
    Ms. Ditto. I'll have to get back to you for the record on 
how often we test our communications fuel backup systems, but 
we are vigilant in keeping those ready.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Ditto. I'll give you an anecdote. After Hurricane 
Matthew a couple of years ago, we did ask our members if their 
communications systems stayed online and they did. We had 
electricity outages, but we did not have communications system 
outages for our own internal communications. The communications 
carriers were out. The telecommunications carriers were out of 
service. We stayed up. We did have to deploy backup power in 
some cases to our communications systems, but we were able to 
do that and they remained online.
    Senator Hoeven. But you would advocate that should be part 
of the test?
    Ms. Ditto. Yes, I think we should have testing.
    Senator Hoeven. Mr. Galloway, in our state we are doing a 
lot with unmanned aerial systems, UAS, or drone development. We 
have a test site and a lot of other things and we have used 
them in situations where we have had storms, floods, various 
things. Talk about the role of UAS in terms of responding to a 
blackstart situation.
    Mr. Galloway. I think the role, the use of drones, is 
increasing very rapidly. It's turned out to be a very useful 
tool for normal operations like, kind of, overseeing rights-of-
way in terms of vegetation management but increasingly in 
damage assessment.
    Senator Hoeven. Right.
    Mr. Galloway. So some of the incidents that I mentioned in 
terms of, like, restoration from Hurricane Irma, extensive use 
of drones, likewise Hurricane Harvey in the Houston area, 
extensive use of drones.
    I do think that one of the issues that we need to look at 
is for any new technology like that, you have to protect that, 
again, from the cybersecurity standpoint, make sure that 
there's no issues.
    And then lastly, I know that kind of coordination in terms 
of access to airspace post-event is an issue. Under Hurricane 
Florence, my understanding is there was a delay of restoration 
of up to a day just, kind of, coordinating access to airspace 
with first responders.
    Senator Hoeven. That is exactly right, and that is why 
utilities in our area are working with our UAS development 
efforts for some of those very reasons.
    Thank you.
    The Chairman. Thank you, Senator Hoeven.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair and Ranking Member 
Cantwell. I must be turning into even more of an energy nerd 
than I was before I got here because this is absolutely--it is 
really, really interesting. And thinking about all the 
different aspects of what we have to be addressing here in 
terms of workforce and startup energy sources and planning and 
testing and communications and also the research that we need. 
I mean, I think this is a very rich conversation.
    I would like to focus in on the question of startup energy 
and, especially, how batteries could be helpful to this. This 
is something that I am quite interested in.
    I introduced a bill last month that would fund energy 
storage capacity at the Department of Energy. This seems to me 
to be something that we can either be leading on in this 
country or following on, and I would rather have us be leading 
on it.
    Mr. Torres, I might start with you and ask you a little bit 
about how you see battery storage as being an important 
component in the energy fuel source? I also have to say, I have 
been to La Junta and brought an ATV there with my dad. So it is 
a great community.
    [Laughter.]
    Mr. Torres. Thank you for visiting.
    [Laughter.]
    Senator Smith. You are welcome.
    Mr. Torres. So thank you for the question.
    Energy storage, I think, can provide a bigger role, not 
just in blackstart, for the grid to increase resiliency 
overall. It can potentially provide a resource, maybe to help 
power up some of the smaller generators, to get those kick-
started.
    Senator Smith. Right.
    Mr. Torres. It can also help with, you know, even smoothing 
some of that transition as we bring some of the various 
resources on. So there's a lot of opportunity in that 
particular space.
    I think where some of the challenge is, is looking at how 
those systems work in conjunction, where energy storage works 
in conjunction with the various other technologies right now.
    Senator Smith. Is that an issue of having a coordinated 
response and making sure that the things are coordinated as 
they come back on?
    Mr. Torres. Absolutely, that's a big part of it. I think 
within blackstart, coordination is very, very important.
    Senator Smith. Yes.
    Well, in Minnesota we get about 25 percent of our energy 
from wind and solar, and that is growing, not declining, so 
there are lots of reasons for us to care about battery research 
and advancing battery storage. This is an area where learning 
about how batteries could be helpful here strikes me as very 
important.
    Would others on the panel like to comment about this?
    Dr. Ortiz, I think in your testimony you talked about a 
utility in Southern California that was able to use battery 
storage to provide blackstart service.
    Dr. Ortiz. Yeah, as part of our review of the blackstart 
restoration plans with the participating utilities, staff 
identified one utility that had successfully used a battery 
for, in its blackstart procedures. And the reason for that is 
that a battery, of a certain size, is able to then provide the 
power that is required to startup a larger facility.
    The process of blackstart is one of starting small and 
growing with a sequential pickup of both generation and load at 
the same time. So smaller scale resources that are more 
flexible tend to be those that are preferred for blackstart 
services. Batteries would fit into that category.
    Senator Smith. Would others like to comment on this?
    Ms. Ditto. I would just say for, sort of, future facing, 
beyond blackstart, really when we're talking about a more 
modern grid and we're talking about edge of the grid issues, 
you need a high level of granularity for those storage 
facilities and for other variable resources to work, needing 
storage, but also to interface with the electric grid for 
backup power. You need a high level of interaction and 
granularity to enable that because of the delicate balance 
between supply and demand on distribution grids.
    So that's going to require even more communications 
technology to be overlaid.
    Senator Smith. Right.
    Ms. Ditto. Which is going to pose some cybersecurity 
challenges and other challenges, but I think that's a key 
component to enabling these types of resources is the 
communications technology piece.
    Senator Smith. Very good.
    Yes?
    Mr. Galloway. And then I would add to the extent that we 
are introducing more and more variable resources into the grid 
in terms of generation, that really does call for utility scale 
battery storage as part of the solution there.
    Senator Smith. Right.
    It could be--just say a little bit more about that, what 
that would look like.
    Mr. Galloway. Well, I think we're talking today in the 
context of blackstart as Dr. Ortiz indicated when you start 
small and kind of grow but, you know, just the operating 
characteristics of a lot of the renewables are intermittent, 
right? And that introduces some added operational complexities.
    So there's tremendous merit in being able to store that 
energy and bring it back online----
    Senator Smith. Right, right.
    Mr. Galloway. ----as necessary to, kind of, smooth out that 
intermittency.
    Senator Smith. So I would say that additional research and 
development around battery storage is useful in a variety of 
ways. It also could be very useful as we think about how to 
address blackstart challenges.
    Mr. Galloway. Correct.
    Senator Smith. Right. Great. Thank you very much.
    The Chairman. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    The advancements in battery storage are also very important 
for Hawaii, because I think we have the most ambitious 
sustainable energy goals--100 percent reliance on renewables by 
2045. So battery storage is really important.
    Ms. Ditto, first I would like to join you in commending the 
workers in the utility industry who do so much to restore power 
during and after a storm. We have so many storms these days. 
Right now, utility workers from across the nation are heading 
to Florida and other states affected by Hurricane Michael as 
part of the mutual agreements pre-established by utilities to 
help each other out after a disaster. I know that Hawaii 
utilities are grateful for the mutual aid agreements they have 
in place with their mainland counterparts, and they are just an 
example of the bonds that tie all Americans together.
    Second, you noted the importance of electric utilities' 
private communications networks to ensuring recovery of the 
power system. As you no doubt remember, there were tragic 
instances of police and other first responders not being able 
to communicate with each other during the 9/11 attacks.
    How well do different utilities' private communications 
systems operate with one another so that a utility crew from 
one company is able to communicate with utility workers say, in 
Hawaii or any other state recovering from a disaster? I am 
assuming, of course, that this kind of interoperability is 
really important for recovery efforts.
    Ms. Ditto. Senator, thank you so much.
    I just want to mention that I spent seventh grade through 
twelfth grade in Hawaii. I went to Punahou. So----
    Senator Hirono. Oh.
    Ms. Ditto. I'm very familiar with the island and my family 
is still there so, yes, I just wanted to mention that. I miss 
being there sometimes.
    I will say that that's a really great question, because 
this goes back to this idea of utility networks and utilities' 
reliance on wireless networks. In the case of radio spectrum, 
the available radio spectrum has not been dedicated to utility 
needs. So when you're in different spectrum bands you need to 
use different equipment and network devices. If you're in 
multiple bands, you cannot interoperate with each other. In 
some cases utilities in a geographic proximity to each other 
will share a band, but that is rare because of this lack of, 
sort of, dedicated spectrum. We're not necessarily asking for 
dedicated spectrum now because that ship has, kind of, sailed, 
but it does speak to the lack of being able to communicate.
    I will say that in rare situations, we do share spectrum 
with first responders. That is something that could be 
excellent in the future. But again, the way policy has 
developed at the FCC has been not--there hasn't been a focus on 
critical infrastructure sectors. There's been more of a focus 
on commercial provision and telecommunication services. So this 
is an area that we'd like to, again, get the FERC and the FCC 
together around, but that interoperability does not exist 
today.
    Senator Hirono. Do you think it is important going forward 
for us to figure out how to do that?
    Ms. Ditto. I think it would be incredibly important. I 
think the first step, again, is greater education about--radio 
spectrum, to be clear, is a finite resource and there are lots 
of demands on it.
    Video streaming, I mean, all that we do at home, Netflix, 
all of that requires spectrum. So there are challenges, but we 
have to remind ourselves what is the priority. We all need 
electricity to exist in this modern world.
    So, yes, we would like to see some changes in the future, 
but starting with some education of agencies would be great.
    Senator Hirono. Well, all these years after 9/11, I don't 
know if the interoperability issue has been resolved with 
regard to first responders. I did some work along those lines 
back then and my hope is that we're moving along, but you know, 
this situation creates yet another circumstance where we have 
to address those issues.
    Mr. Torres, in May I was able to attend the opening of a 
biodiesel fuel power plant at the Schofield Army Barracks. This 
plant is the only blackstart-capable generator outside of the 
tsunami strike zone on Oahu and it was, kind of, astounding 
that a lot of these power plants are located close to where 
their fuel sources are, so they often are in tsunami zones. So 
they finally figured out that is not a good place to put power 
plants.
    [Laughter.]
    The 50-megawatt plant is owned and operated by Hawaiian 
Electric on land leased from the Army. In an emergency the Army 
can use the plant as part of a microgrid to provide secure 
emergency power to the Army Schofield Barracks' fuel stations, 
Kunia and Wheeler Army Airfield. This project can serve as an 
example to other military installations in need of a secure 
source of power.
    I want to ask you, what opportunities and challenges do you 
see for broader use of microgrids for ensuring resilient power 
when the larger grid fails?
    Mr. Torres. That's a great question.
    Microgrids are still maturing with regards to technology, 
with regards to procedures, with regards to standards but I 
think there is a tremendous opportunity, especially when you 
lose a transmission line where you may not be able to provide 
power from the bulk grid.
    Especially when you have critical loads like a military 
installation or hospital or other government installations, you 
may want to add some resiliency with distributed resources at a 
microgrid level.
    I think there's opportunity, as well, to explore how 
microgrids could provide blackstart capability to help start up 
the bigger grid. There's a lot of work that would still need to 
be done in that space from the regulatory perspective as well 
because, I believe, most of the regulatory guidelines for 
blackstart assume utilities are the ones that are actually 
putting the power on the grid and when you're talking about 
microgrids, you could have a whole spectrum, you know. In that 
case, you might have a military installation, essentially, 
operating from that perspective and putting power on the grid. 
So it would have to be very closely managed and controlled by a 
utility.
    Senator Hirono. If I may, Madam Chair?
    Does the rest of the panel also agree that microgrids are 
an opportunity for us and we should be looking at how we can 
enable more microgrids?
    Mr. Ott. Yes. In fact, we have seen microgrids actually 
provide restoration. For example, remember Hurricane Sandy and 
there were points of light in New Jersey that were microgrids 
and having them, actually, then look at a way to be a viable 
part of the picture in restoration. The real issue is 
coordination, visibility to operators like us.
    So it's really--to work out those types of details, as the 
technology itself, we think, is probably a viable technology 
for blackstart. There's certainly promise there. We just need 
to do more.
    The other issue is compensation. How are people going to be 
paid to help their neighbors? Because you can only depend on 
good neighbors so long, and then you need to systematically pay 
for it.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Madam Chair, 
and I appreciate the conversation.
    I want to go back to what Senator Hirono was talking about, 
the interoperability. This, to me, is a big concern, not just 
because of being here in 2001, 9/11 happened, I was in 
Washington, DC. You could not use a cell phone.
    After our horrific, horrific massacre, October 1, a year 
ago, my concern was the interoperability of our first 
responders and their access to the necessary communication and 
needs for public safety. I cannot stress enough that this is so 
important when we are addressing this issue, when we have a 
blackstart situation.
    Ms. Ditto, you talked a little bit about the need to 
educate agencies. What do you mean by that?
    Ms. Ditto. Yeah, so right now, I mean, the regulatory 
authority for radio spectrum resides primarily at the Federal 
Communications Commission which is outside of this Committee's 
jurisdiction. But because they have control over that radio 
spectrum, utilities weigh in with the FCC on their needs in 
this regard. But there's not a lot of understanding there.
    Senator Cortez Masto. Amongst the utilities?
    Ms. Ditto. Amongst the FCC folks----
    Senator Cortez Masto. Okay.
    Ms. Ditto. ----about energy needs and utility needs. And I 
would say that's true of other critical infrastructure 
providers as well. It's not their reason for being.
    So our idea is let's get FERC and the FCC, because FERC has 
the jurisdiction over the bulk power system, get them together, 
get them learning from each other like FERC does with the 
Nuclear Regulatory Commission and then from FERC. And that 
could be a good place to start to have some of these more 
serious discussions about interoperability. But as we know, 
when you don't understand each other's perspective at all----
    Senator Cortez Masto. Right.
    Ms. Ditto. ----especially in these very complex, I mean, 
these are very complex industries and I think having that, 
having technical conferences, having meetings, joint technical 
conferences, could be another thing that they do to educate 
each other or to educate the general public. There are a number 
of things that could be done to provide that education.
    We could also, you could bring them up here and we could 
have briefings with Congressional staff and with members of the 
Senate and members of the House as well. There are a number of 
areas we could have this conversation, but I think before going 
to policy changes, that needs to be, we need to have that.
    Senator Cortez Masto. To have the conversation?
    Ms. Ditto. Correct.
    Senator Cortez Masto. Mr. Ortiz, where is FERC with respect 
to this issue, and what are you looking to do after hearing the 
panelists and this discussion today?
    Dr. Ortiz. So FERC has engaged with other agencies in areas 
of mutual interest. Let me give you two examples.
    The first is periodic meetings with both the FERC 
commissioners as well as the NRC commissioners on topics of 
mutual interest. The last meeting took place in June and 
covered the topics of resource adequacy and security.
    And we just, the Commission, just recently signed and 
highlighted at our last Commission meeting a memorandum of 
understanding with the Pipeline and Hazardous Materials Safety 
Administration in order to further our mutual interest in that 
area.
    I acknowledge that there are mutual interests here as well; 
however, as a FERC staff witness rather than a commissioner, I 
cannot speak on behalf of the Commission but I'd be happy to 
discuss this with the Chairman and then report back to the 
Committee.
    Senator Cortez Masto. I appreciate that and the need to 
engage the FCC. I mean, that is what I am hearing here. And it 
does not sound like that is happening yet----
    Dr. Ortiz. I can't say. The purview of my office is 
electric reliability, focused primarily on the development, 
implementation and enforcement of mandatory reliability 
standards.
    There are some aspects, with respect to communications 
within our cybersecurity standards, but none at the level with 
respect to the actual provision of spectrum or appropriate 
bandwidth in order to facilitate such communications.
    Senator Cortez Masto. Thank you.
    Mr. Ott, did you have anything to add to this? I just 
noticed you are shaking your head----
    Mr. Ott. Well, yeah, the key is the electric sector, and I 
happen to chair on behalf of the Electric Sector Coordinating 
Council, the R&D Committee. One of those, one of the--in fact, 
the highest priority effort we have right now for 2018 and '19 
is redundant communication and actually looking at technologies 
that would allow us to essentially, in a Black Sky scenario, 
stitch together whatever kinds of communications are available 
into a network that we could actually utilize.
    And so, certainly from a utility perspective, we're not 
waiting for agencies to tell us what to do. We're actually 
trying to take action. I just thought that that might help with 
the conversation.
    Senator Cortez Masto. Okay, thank you. I appreciate that.
    Actually, my time is up. Thank you so much for the 
discussion.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator King.
    Senator King. Thank you, Madam Chair.
    I apologize to the witnesses for being late. There is no 
effort made whatsoever to coordinate schedules of hearings 
around here. I spent the morning in an Armed Services 
classified briefing which, believe me, you did not want to be 
in.
    New England is enormously dependent on natural gas. I just 
looked at my little app from the ISO--74 percent of the power 
in New England right now is coming from natural gas.
    In a polar vortex event or a pipeline disruption, a couple 
of questions: How would we fill in all of that power? And the 
second question is, I guess to the point of the hearing, can a 
gas plant blackstart? Does it have the technical capability to 
restart and put power into the grid?
    Mr. Ott.
    Mr. Ott. Thank you, Senator King.
    Yes, in fact, to answer your second question first, a gas 
unit can be blackstart. The key though is, obviously, if it 
can't get fuel----
    Senator King. Right.
    Mr. Ott. Then we've got a problem----
    Senator King. Assuming it is a problem not of gas supply, 
but it is a problem somewhere on the----
    Mr. Ott. Well, when you have a blackstart resource that has 
a single point of failure, meaning it could have an 
interruption of its fuel source and that would be a single 
point of failure, that's not a very robust blackstart resource 
because you want that blackstart resource to be there at all 
times.
    Senator King. Hydro could be though, couldn't it?
    Mr. Ott. There we go, exactly. And that's the whole point, 
is diversity of supply. That same gas unit, by the way, could 
have liquid fuel backup onsite and certainly could then be more 
dependable.
    But to answer your first question and this issue of--and 
certainly I'll talk to my colleagues in New England, Mr. Van 
Wheelie and others in New York, to try to coordinate our 
operations and our efforts, if you will, on resilience.
    I think the key here, and we're about to put a study out on 
this issue of fuel security and what is the plan, if you will, 
if we become over-dependent upon gas.
    In the PJM region, we're not quite as over-dependent as 
they are in New England, but the key is, what is the backup 
plan? How are we going to pay for liquid fuel, you know, 
delivery alternatives, when you have a gas infrastructure? In 
New England's case, what's the plan for depending on imports, 
other things like this? Those types of discussions on 
resilience are in the forefront right now. I think, certainly, 
our study will help.
    Senator King. I think you just answered my second question 
which is, should blackstart capability be part of any overall 
resource planning?
    Mr. Ott. Yes.
    Senator King. A plan, and the answer is yes?
    Mr. Ott. Yes.
    Senator King. I have to share a funny story. I was in 
college during the 1965 blackout. And in our college, we were 
all told never, ever plug in a hot plate. A fellow in one of 
our dorms plugged in a hot plate. The very moment he plugged it 
in, the lights went out.
    [Laughter.]
    He said, oh no, I've brought down the dorm. He walked 
outside. Somebody said the lights are out all over town. He 
said, oh no.
    [Laughter.]
    Then somebody drove by and said the lights are out all over 
the Northeast. And he said, now wait a damn minute.
    [Laughter.]
    So that is my 1965 blackout story.
    How likely is this to happen? I mean, we have not had a 
major blackout of that nature for 50 years. Is this a realistic 
risk? Is it something that should be on the top of our list or 
is this not as high a priority as, perhaps, other parts of grid 
security? Thoughts?
    Mr. Galloway. Well, we've been, in the transmission forum, 
spending a lot of time on the issue of resiliency under the 
assumption that however unlikely something of this scale could 
happen. And so, our planning has been, kind of, getting beyond 
design basis and assuming that the worst has happened for any 
number of different reasons and how would you, kind of, work 
back from that.
    So----
    Senator King. What are the reasons? Would this be a 
cyberattack or an explosion on a transmission system basis? 
What are we worried about here?
    Mr. Galloway. Well, we're looking at a couple of different 
things. One would be, as we're seeing in Hurricane Michael 
right now, there's natural effects, right? But you see an 
uptick in the number of, kind of, cyber phishing events, almost 
coincident with every type of natural occurrence like that.
    Senator King. Certainly, a cyberattack on the grid is a 
very serious concern.
    Mr. Galloway. That's probably the most serious concern 
right now and that in conjunction with some other kind of 
coordinated action or some natural event.
    Senator King. Thank you.
    Mr. Ott. If I may, Senator.
    The key is these very high-impact, low-probability events. 
I think we all, as a nation, are seeing these risks and risks 
that we haven't seen before. It used to be weather, you know, 
equipment failure. Now it's that plus intentional attack, 
cyberattack, et cetera.
    The infrastructure of the nation, I think, the way we have 
to approach it though, by the way, this needs to be addressed. 
And I think the way we have to approach it is economically. We 
have to say yes, okay, let's take action, but let's take action 
that is well thought out, looks at all alternatives, doesn't 
focus on one answer, looks at diversity. I think the way the 
industry is approaching it, certainly the way PJM is 
approaching this, is to say, it is a realistic threat. 
Certainly we haven't seen it in the past, but the way to 
approach it is with thoughtful analytics, not panic.
    I think you're seeing that. And I think, certainly from our 
perspective, we have and will propose to the regulators, here's 
a path forward that we think will work for everyone and 
certainly respect the fact that cost is, you know, you can't 
have unlimited expenditures here.
    Senator King. Right.
    Mr. Galloway. If I could, kind of, tag on to that very 
briefly? I echo everything Mr. Ott just said. So the term we 
use is, kind of, no regrets actions. We're really, we push on 
the concept really hard of taking a holistic approach and when 
you are working on resiliency issues, don't treat issues in 
isolation, right? Because economics is important and really, 
kind of, doing those things that would help you across a 
spectrum of a type of hazards would naturally be prioritized up 
on our list.
    Senator King. Madam, can I ask one more question?
    The Northeast blacked out in 1965. The grid is much more 
integrated today than it was then in a lot of different ways. 
Is there a danger that what happened in 1965, which was not a 
cyberattack but it was a series of successive failures, could 
spread nationwide, or are there gaps, are there protections?
    Mr. Ott. Generally speaking, when you have one side of the 
system go down, you'll see a separation and you saw that in 
2003 where we had some problems in Northern Ohio that took out 
New York into parts across there, but PJM system was able to 
stay up because of some strength of the transmission.
    So it's likely that type of event is not going to take the 
system down globally. It's more, the global thing is more, in 
my opinion, more of an intentional attack type scenario and I 
think that's different. So, yes, for what it's worth, I believe 
the grid itself has some protections to stop blackouts from 
spreading too far.
    Senator King. Thank you.
    Ms. Ditto. Well, also, there are three interconnections on 
the mainland U.S. and then, obviously, you have Alaska and 
Hawaii that have their own grids. But these interconnections 
are essentially islanded so, from a nationwide standpoint, it 
would be difficult to do. You'd have to have concerted, 
physical attacks in multiple locations throughout the U.S. and 
cyberattacks at the same time; otherwise, you could at least 
contain via interconnection, eastern, western or Texas.
    Senator King. Thank you.
    I am delighted to hear that. I appreciate it.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    This is one of those reminders that sometimes your 
geographic distance provides you a little bit of insulation. 
Oftentimes we feel very vulnerable and on our own with no 
neighbors to rely on, but when you do have a threat that could 
cross multiple systems, it is something where you say, okay, 
the attributes that whether it is microgrid, like Senator 
Hirono was talking about, or these very small grids that we 
would have, more independent grids that we have in Alaska, 
where you have almost greater resiliency because of how you are 
situated.
    Senator Risch, do you want to hop in here?
    Senator Risch. I am going to pass, I have been chairing the 
Foreign Relations Committee.
    The Chairman. I am sorry, sir.
    We have had a fabulous discussion here this morning. So 
welcome.
    Senator Risch. Thank you.
    The Chairman. The whole issue of no regrets and a policy, 
no regrets action, I think, is important and in your testimony 
you also, kind of, referred to this as a spare tire. You hope 
you never get that flat, but if you do, you have it in the car 
and you know how to use it. You have tested it or you have 
checked to make sure that there is at least air in it and you 
have a jack in there. So you are ready to go.
    You are moving to this place where you do have greater 
comfort, in the sense that there is a diversification of fuel 
sources. You are doing more when it comes to the testing, the 
training, which is all important. But it seems to me, pretty 
clearly, the threats that are out there, as you said, Mr. 
Yardley, they are here, they are now.
    I wonder if we are at that place where we need to help 
expedite this no regrets action plan a little bit more quickly.
    The question to you, Mr. Galloway, is this a carrot or a 
stick? Is this something where FERC should look to imposing 
some standards or offer incentives to, kind of, move the 
utilities more quickly in improving their technology? I am 
curious about that. I also want to better understand when we 
are talking about the cost to the utilities, to the owners of 
these blackstart resources, we have talked a little bit about 
the cost, the carrying cost if you will, to have this standby 
service available.
    Are these blackstart units, and I guess I will ask you, Mr. 
Ott, within PJM, are they adequately compensated? And what 
really is the cost of keeping this on, kind of, a hot standby, 
if you will, because you have a situation where you may need to 
be holding extra fuel. Is that the cost or is it the cost of 
installing better technology, better equipment?
    Since we are, kind of, coming to the end of the discussion 
here today, I throw it out to you. I am curious to hear from 
you, Mr. Galloway, on what more needs to be done to get us to 
that better state of readiness and then the cost to do that.
    Mr. Galloway. So, if you look at, kind of, cyber threats as 
one of the primary challenges here, and I think we've, kind of, 
talked about that a number of different times, I'm not sure 
that more mandatory standards is the answer there.
    The Chairman. Okay.
    Mr. Galloway. We're on version five of the Critical 
Infrastructure Protection Standards. That's a fairly heavy lift 
for a lot of the companies and may actually be a disincentive 
for folks declaring certain assets that are blackstart capable, 
as formal blackstart units, right, because of the carrying cost 
associated with the compliance. And then the other issues that 
you spoke to in observance of duel fuel capability and so 
forth.
    So I think to Mr. Ott's earlier comments, if we see the 
need for, kind of, redundant, diverse, multiple fuel source, 
blackstart units, we want to make sure that there's a market 
incentive toward that, right? And that we approach it from a 
holistic, kind of, big picture view of are they appropriately, 
geographically distributed, right, from both a physical and an 
electrical perspective so that they plug into the system. I 
think PJM and others have done a lot of good analytical work on 
that, kind of looking at the sensitivity of moving to one fuel 
source.
    So, perhaps, Mr. Ott would care to----
    Mr. Ott. Yeah, and again, I didn't have this answer when 
Senator Manchin was here, but we do have actually 8,000 
megawatts of blackstart in PJM, so it's probably even bigger 
than I thought.
    But to answer your direct question, we have had several, 
and I say controversial, discussions with folks on both sides 
of the discussion on cost of blackstart. My opinion is we 
haven't done enough to make sure those resources are properly 
compensated. And certainly we are still, we are engaged in 
discussions to say the cost of having no single point of 
failure is not a small cost. It is a small number relative to 
the cost of electricity. It's probably less than one percent, 
probably even less than half a percent of the total.
    But the point is it's an important contract if you want an 
important, I'll say guarantee, if you will, to the company to 
say, get rid of those single points of failure, spend some 
money to do it. It's money well spent, in my opinion. I think 
that it will be, this notion of resilience, if you will. To me, 
what resilience means as a system operator is I have degrees of 
freedom. I have margin for error. I have alternatives. And you 
never know, again, what situation you're going to be in, in 
these types of scenarios and having those degrees of freedom is 
invaluable. You can't go back and get it later after the events 
happen.
    But I will say, frankly, what we really need, I think, is 
leadership from--I think we know what to do. Policy guidance 
from FERC, the FERC had put out a resilience NOPR some time 
ago, but there's been nothing since. Moving this policy 
guidance forward to say, let's engage in resilience, whether it 
be from a fuel security perspective or a system restoration. If 
you think about the pillars of resilience, the way I think 
about it, it's the power grid itself and making that as robust 
as possible and looking at these types of single point of 
failures.
    There's the dependent systems like the natural gas 
infrastructure in looking at fuel security, and there's 
restoration and how you bring the system back should the other 
two not be sufficient. So, it's all those dimensions we need to 
address.
    And really, this notion of resilience and bringing to the 
Floor, if you will, policy guidance from the regulator, is 
really what we need to get started on because it's been, we've 
been talking a little bit too long. We need some action on some 
of those things, especially this issue of fuel security and 
some other things we'll engage in conversation very soon on.
    Ms. Ditto. I would just add that I think we're really at a 
crossroads in our sector. We have, as I think I mentioned in my 
testimony, expectations from our customers and from 
policymakers that we have a smart grid. We have a grid that's 
very efficient, that's flexible, that integrates intermittent 
resources, battery storage, other types of new technologies 
that are positive--electric vehicles. At the same time, those 
technologies, those communications technologies needed to 
enable those types of future facing grids leave us vulnerable 
on cybersecurity, right? So we have, I mean, we could go back 
to the dark ages and say, you know what, we don't want, we 
don't accept that risk. We don't want any cybersecurity risks, 
but I don't think we can put that genie back in the bottle, nor 
do I think we want to.
    I think going forward what Andy mentioned about leadership, 
I think the leadership that you all could provide here is a 
better understanding from the technology side as well as from 
the communications side and the electric side, what our 
interdependencies are, where we don't have interdependencies, 
what policy issues, maybe, need to be addressed to enable us to 
provision these technologies and limit our cybersecurity risks.
    And also, from a workforce standpoint, I would echo what 
Mr. Yardley said earlier, perhaps some additional funding, 
additional brainstorming around what we could do to encourage 
our workforce to get into these fields in the utility side as 
well as in the technology side.
    So I think there are some things we could do to convene to 
really decrease stovepipes across industries, across the 
Federal Government so we can understand these vulnerabilities 
better. I think it is a good place to start in this crossroads 
time.
    The Chairman. You had suggested earlier that you believe 
that the FERC and the FCC need to come together for these 
discussions. Does anybody know if that has ever happened?
    Ms. Ditto. Again, I think maybe there's informal 
discussions that occur between the two agencies but to my 
knowledge, there's no formal venue for those discussions, at 
least in recent memory.
    Mr. Yardley. Senator Murkowski, if I may?
    The Chairman. Yes.
    Mr. Yardley. Pulling on the thread of resiliency, we've 
talked a lot about fuel security, but echoing my statements 
earlier, cybersecurity is only one aspect of cyber resiliency. 
In our blackstart plans we have that same issue. Even if you 
have multiple fuel sources that are able to provide fuel to a 
given generation, you have that fuel security. You can't 
operate those generators unless you (a) have the people that 
are skilled to operate it, and (b) can rely on the technology, 
the control systems that are operating that grid, to function 
the way that they're supposed to, to run that generator to 
deliver that power where it needs to go, et cetera.
    And that's also on the other side of it too. One thing that 
we have not touched on in blackstart is the delicate balance 
between the amount of power you generate and where that power 
goes. So you have to have loads that balance out the amount of 
generation. And that's also another attack factor. If somebody 
takes out large amounts of loads that are there, that throws 
that out of balance and you can have your crank path collapse.
    The Chairman. Colleagues, any further questions or 
comments?
    Well, I thank you all. This has been very informative and 
very worthwhile. I so value the expertise that we have 
assembled here.
    I might close with just a little bit of a shout out to 
Alaska. Senator King just mentioned, who would have thought 
that it would actually be an advantage not to be on the broader 
grid? But it does require a level of innovation in a place like 
Alaska. We were quite pleased in May to be able to host 
National Lab Day up at the University of Alaska, Fairbanks. We 
had every one of our national labs represented there, so many 
of the directors. But it was great in the sense that we had all 
of these very learned people figuring that they were going to 
come and share with Alaskans all the great things that are 
happening and they learned so much from us because we just have 
to figure it out because when your grid is supplying, 
basically, a village of 350 people and you might be tied into 
another village a few miles separated by land, but not 
connected by road--pretty small, pretty high cost, how are you 
going to make this work? A lot of duct tape, a lot of 
ingenuity. I think it is important that we all recognize that 
we can learn so much from the way that we are situated 
differently around the country.
    So we have our own fair share of experts up there and would 
certainly welcome those who want to come together to 
collaborate.
    A very important issue this morning and just some good 
resources. I am intrigued by what you have stated, Ms. Ditto, 
that we need to be breaking down more of these silos within 
these agencies and within those who are working on these very 
important issues and make sure that there is better 
communication, better understanding and a more unified strategy 
going forward because, as you point out, Mr. Yardley, we are 
here, it is happening now.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:59 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

</pre></body></html>
